                          October 6, 2006




MEMORANDUM TO:            Chairman Klein



FROM:                     Hubert T. Bell /RA/
                          Inspector General


SUBJECT:                  INSPECTOR GENERAL’S ASSESSMENT OF THE MOST
                          SERIOUS MANAGEMENT AND PERFORMANCE
                          CHALLENGES FACING THE NUCLEAR REGULATORY
                          COMMISSION (OIG-07-A-01)


The Reports Consolidation Act of 2000 (the Act) requires the Inspector General
of each Federal agency to annually summarize what he or she considers to be
the most serious management and performance challenges facing the agency
and to assess the agency’s progress in addressing those challenges. In
accordance with the Act, I identified nine management and performance
challenges that I consider to be the most serious. The list of nine challenges
reflects the removal of one of the 2005 challenges and the addition of a new
challenge.

We appreciate the cooperation extended to us during this evaluation. If you have
any questions or comments about our report, please feel free to contact
Stephen D. Dingbaum, Assistant Inspector General for Audits, at 415-5915 or me
at 415-5930.

cc:   Commissioner McGaffigan
      Commissioner Merrifield
      Commissioner Jaczko
      Commissioner Lyons
ELECTRONIC DISTRIBUTION

John T. Larkins, Executive Director, Advisory Committee on Reactor
  Safeguards/Advisory Committee on Nuclear Waste
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
Jesse L. Funches, Chief Financial Officer
Janice Dunn Lee, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
William F. Kane, Deputy Executive Director for Reactor
  and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Research,
  State and Compliance Programs, OEDO
Jacqueline E. Silber, Deputy Executive Director for Information Services
   and Administration and Chief Information Officer, OEDO
Michael R. Johnson, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Cynthia A. Carpenter, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
   and Environmental Management Programs
Guy P. Caputo, Director, Office of Investigations
Edward T. Baker, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
R. William Borchardt, Director, Office of New Reactors
Jack R. Strosnider, Director, Office of Nuclear Material Safety and Safeguards
James E. Dyer, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
William D. Travers, Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Bruce S. Mallett, Regional Administrator, Region IV
            EVALUATION REPORT

                   Inspector General’s Assessment of the
                 Most Serious Management and Performance
                           Challenges Facing NRC

                        OIG-07-A-01 October 6, 2006




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



EXECUTIVE SUMMARY

      BACKGROUND

               The Reports Consolidation Act of 2000 (the Act) requires the
               Inspector General (IG) of each Federal agency to annually
               summarize what he or she considers to be the most serious
               management and performance challenges facing the agency and to
               assess the agency’s progress in addressing those challenges.

      PURPOSE

               In accordance with the Act, the IG at the Nuclear Regulatory
               Commission (NRC) updated what he considers to be the most
               serious management and performance challenges facing NRC. As
               part of the evaluation, the Office of the Inspector General staff sought
               input from NRC’s Chairman, Commissioners, and NRC management
               to obtain their views on what challenges the agency is facing and
               what efforts the agency has taken to address previously identified
               management challenges.

      RESULTS IN BRIEF

               The IG identified nine challenges that he considers are the most
               serious management and performance challenges facing NRC. The
               challenges identified represent critical areas or difficult tasks that
               warrant high-level management attention. Additionally, the IG
               identified one of the 2005 management challenges, Intra-agency
               communication (up, down, and across organizational lines), to be
               removed. The chart that follows provides an overview of the nine
               most serious management and performance challenges as of
               September 30, 2006.




                                                i
 Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




              Most Serious Management and Performance Challenges
                   Facing the Nuclear Regulatory Commission*
                             As of September 30, 2006
                      (as identified by the Inspector General)
Challenge 1          Protection of nuclear material used for civilian purposes.

Challenge 2          Protection of information.

Challenge 3          Development and implementation of a risk-informed and performance-based
                     regulatory approach.

Challenge 4          Ability to modify regulatory processes to meet a changing environment.

Challenge 5          Implementation of information resources.

Challenge 6          Administration of all aspects of financial management.

Challenge 7          Communication with external stakeholders throughout NRC regulatory
                     activities.

Challenge 8          Managing human capital.

Challenge 9          Ability to meet the demand for licensing new reactors.

       *The most serious management and performance challenges are not ranked in any
       order of importance.

       CONCLUSION

                Although the nine challenges identified in this report are distinct, they
                are also interdependent. The overarching challenge of managing
                human capital is the cornerstone to effectively addressing all other
                management and performance challenges. The agency took
                considerable action to address one of the 2005 management
                challenges to justify its removal and has taken action regarding the
                management and performance challenges identified in this report.

                However, continuing management attention and emphasis on the
                management and performance challenges is essential to achieving
                significant progress for each challenge.




                                                  ii
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



ABBREVIATIONS AND ACRONYMS

               ADAMS           Agencywide Documents Access and Management
                               System
               CEAR            Certificate of Excellence in Accountability Reporting
               CFR             United States Code of Federal Regulations
               COL             Combined Operating Licenses
               EDO             Executive Director for Operations
               FAR             Federal Acquisition Regulation
               FISMA           Federal Information Security Management Act
               HSPD            Homeland Security Presidential Directive
               IG              Inspector General
               NBC             National Business Center
               NMMSS           Nuclear Materials Management and Safeguards
                               System
               NMSS            Nuclear Material Safety and Safeguards
               NRC             Nuclear Regulatory Commission
               OCFO            Office of the Chief Financial Officer
               OIG             Office of the Inspector General
               OMB             Office of Management and Budget
               PII             personally identifiable information
               PRA             probabilistic risk assessment
               ROP             Reactor Oversight Process
               SUNSI           sensitive unclassified non-safeguards information




                                               iii
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




                               [Page intentionally left blank.]




                                               iv
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC



TABLE OF CONTENTS

      EXECUTIVE SUMMARY ........................................................................ i

      ABBREVIATIONS AND ACRONYMS....................................................iii

      I.     BACKGROUND ............................................................................. 1

      II.    PURPOSE ..................................................................................... 1

      III.   EVALUATION RESULTS............................................................... 1

             Challenge 1 – Protection of nuclear material used for civilian
             purposes ........................................................................................ 5

             Challenge 2 – Protection of Information........................................ 8

             Challenge 3 – Development and implementation of a risk-
             informed and performance-based regulatory approach ............... 13

             Challenge 4 – Ability to modify regulatory processes to
             meet a changing environment...................................................... 16

             Challenge 5 – Implementation of information resources ............. 19

             Challenge 6 – Administration of all aspects of financial
             Management................................................................................ 22

             Challenge 7 – Communication with external stakeholders
             throughout NRC regulatory activities ........................................... 27

             Challenge 8 – Managing human capital...................................... 29

             Challenge 9 – Ability to meet the demand for licensing new
             Reactors ...................................................................................... 33

      APPENDIX

      A.     SCOPE AND METHODOLOGY .................................................. 37




                                                        v
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




                                   [Page intentionally left blank.]




                                               vi
 Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC


I.    BACKGROUND

                On January 24, 2000, Congress enacted the Reports Consolidation
                Act of 2000 (the Act), requiring Federal agencies to provide financial
                and performance management information in a more meaningful and
                useful format for Congress, the President, and the public. The Act
                requires the Inspector General (IG) of each Federal agency to
                annually summarize what he or she considers to be the most serious
                management and performance challenges facing the agency and to
                assess the agency’s progress in addressing those challenges.

II.   PURPOSE

                In accordance with the Act, the IG at the Nuclear Regulatory
                Commission (NRC) updated what he considers to be the most
                serious management and performance challenges facing NRC. The
                IG evaluated the overall work of the Office of the Inspector General
                (OIG), the OIG staff’s general knowledge of agency operations, and
                other relevant information to develop his list of management and
                performance challenges.

                As part of the evaluation, OIG sought input from NRC’s Chairman,
                Commissioners, and NRC management to obtain their views on what
                challenges the agency is facing and what efforts the agency has
                taken to address previously identified management challenges. Also,
                this report includes a listing of OIG audit and investigative reports
                issued during FY 2006 that address the challenges identified.

III. EVALUATION RESULTS

                The NRC’s mission is to “License and regulate the Nation’s civilian
                use of byproduct, source, and special nuclear materials to ensure
                adequate protection of public health and safety, promote the common
                defense and security, and protect the environment.” Like other
                Federal agencies, NRC faces management and performance
                challenges in carrying out its mission.

                Determination of Management and Performance Challenges

                Congress left the determination and threshold of what constitutes a
                most serious management and performance challenge to the
                discretion of the Inspectors General. As a result, the IG applied the
                following definition in identifying challenges:




                                                 1
 Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




       Serious management and performance challenges are mission critical areas
       or programs that have the potential for a perennial weakness or vulnerability
       that, without substantial management attention, would seriously impact
       agency operations or strategic goals.

                Based on the aforementioned definition and criteria, the IG revised
                his list of the most serious management and performance challenges
                facing NRC. The challenges identified represent critical areas or
                difficult tasks that warrant high-level management attention. The
                chart that follows provides an overview of the nine management
                challenges. The sections that follow provide more detailed
                descriptions of the challenges, descriptive examples related to the
                challenges, and examples of efforts the agency has taken or are
                underway to address the challenges. The most serious management
                and performance challenges that follow are not ranked in any order
                of importance. Eight of the nine challenges are essentially the same
                as last year. However, this year the IG identified a new management
                and performance challenge titled: Ability to meet the demand for
                licensing new reactors. Additionally, the IG identified one 2005
                management challenge, Intra-agency communication (up, down, and
                across organizational lines), to be removed.

              Most Serious Management and Performance Challenges
                    Facing the Nuclear Regulatory Commission
                             As of September 30, 2006
                      (as identified by the Inspector General)
Challenge 1          Protection of nuclear material used for civilian purposes.

Challenge 2          Protection of information.

Challenge 3          Development and implementation of a risk-informed and performance-based
                     regulatory approach.

Challenge 4          Ability to modify regulatory processes to meet a changing environment.

Challenge 5          Implementation of information resources.

Challenge 6          Administration of all aspects of financial management.

Challenge 7          Communication with external stakeholders throughout NRC regulatory
                     activities.

Challenge 8          Managing human capital.

Challenge 9          Ability to meet the demand for licensing new reactors.

        *The most serious management and performance challenges are not ranked in any
        order of importance.



                                                  2
 Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC


                    Removal of 2005 Management Challenge 8: Intra-Agency
                    Communication

                    As a result of various actions taken by NRC to improve internal
                    communications, last year’s management challenge number 8, Intra-
                    agency communication (up, down, and across organizational lines),
                    was removed. The results of a 2005 survey of NRC employees, as
                    reported in the NRC Safety Culture and Climate Survey Executive
                    Summary 2005, illustrate that the agency’s commitment to internal
                    communications has paid dividends. The Executive Summary noted
                    that the staff’s response to questions in the category of
                    communication1 showed the highest improvement of all categories
                    over the 2002 survey results.

                    NRC’s Strategic Plan stresses the importance of the role of internal
                    communications in achieving the agency’s mission and goals.
                    Accordingly, the agency’s Communications Council is actively
                    involved in planning, coordinating, implementing, and improving NRC
                    internal communications strategies. The main impetus of the Council
                    is to address internal communication issues. The Council engages
                    staff from around the agency to assist with projects requiring multiple
                    office input, coordination, and agreement.

                During FY 2006, NRC continued to improve and maintain several
                mechanisms to enhance its internal communications. For example:

                •     the Executive Director for Operations (EDO) issues periodic
                      electronic “EDO Updates” to NRC staff highlighting current events
                      around the agency.

                •     the NRC Reporter, an internal use only publication, is designed to
                      communicate a quick overview of what’s happening all over the
                      agency.

                •     NRC issues Announcements (formerly Network Announcements)
                      to communicate information of major significance or interest to
                      agency employees, as well as urgent or time-sensitive information.




1 Communication: The survey evaluated the availability of information about matters affecting the agency, and
information employees need to do their job. It also assessed the degree of openness that employees have
with speaking up in the NRC; measured employees’ understanding of the goals and objectives of their work
unit, division, office/region, and NRC as a whole and the NRC Strategic Plan. In addition, employees’
awareness of NRC’s plans, performance, and mission were evaluated. This category also measured the
effectiveness of various internal communication vehicles.
                                                     3
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC


             •     NRC also issues Yellow Announcements to communicate new
                   policies, practices, or procedures; to introduce changes in policy,
                   senior staff assignments, or organization; or to address major
                   agency-wide events.

                 Also, NRC’s Internal website provides employees with information on
                 (1) different ways to address intra-agency concerns such as the
                 Differing Professional Opinions Program, Discrimination Complaints,
                 Employee Concerns Overview, and clarification of ethics in the
                 workplace.

                 Finally, NRC continues to hold an annual “All Employees” meeting as
                 a mechanism for direct two-way communication between the
                 Commission and agency staff. The Office of the Executive Director
                 for Operations’ internal webpage provides guidance to the staff,
                 including guidance on communicating with the Commission.

                 While the agency has taken considerable action that would justify the
                 removal of the 2005 Management Challenge number 8, Intra-agency
                 communication, assuring effective intra-agency communication
                 remains critical to successfully carrying out the agency’s mission.
                 Apart from the positive results of the 2005 Safety Culture Climate
                 Study, the IG continues to see instances where the agency has
                 experienced difficulty in communicating across programs.

                 Continued focus on across-the-agency communications is needed to
                 address this area. Therefore, although the IG removed this as one of
                 the most serious management and performance challenges, OIG will
                 continue to monitor this issue.




                                                4
 Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




CHALLENGE 1
Protection of nuclear material used for civilian purposes.

                  NRC’s Strategic Plan provides for “Excellence in regulating the safe
                  and secure use and management of radioactive materials for the
                  public good.” NRC is authorized to grant licenses for the possession
                  and use of radioactive materials (e.g., byproduct material,2 source
                  material,3 and special nuclear material4) and establish regulations to
                  govern the possession and use of those materials. NRC’s
                  regulations require that certain materials licensees have extensive
                  material control and accounting programs as a condition of their
                  license. All other license applicants (including those requesting
                  authorization to possess small quantities of special nuclear materials)
                  must develop and implement plans that demonstrate a commitment
                  to accurately control and account for radioactive materials.

                  One of NRC’s and the nuclear industry’s highest priorities must be
                  ensuring adequate protection of public health and safety.
                  Heightened sensitivity to the control of special nuclear materials
                  warrants NRC’s serious attention to its licensees’ material control and
                  accounting activities. Similarly, the control and accounting of
                  licensed byproduct material also warrants attention. The challenges
                  currently facing NRC in the area of protecting nuclear materials are
                  to:

                  •    ensure adequate inspections to verify licensees’ commitments to
                       their material control and accounting programs;

                  •    ensure reliable accounting of special nuclear materials in the NRC
                       and Department of Energy’s jointly managed Nuclear Materials
                       Management and Safeguards System (NMMSS); and


2 Byproduct material – (1) Any radioactive material (except special nuclear material) yielded in or made
radioactive by exposure to the radiation incident to the process of producing or using special nuclear material
and (2) the tailings or wastes produced by the extraction or concentration of uranium or thorium from any ore
processed primarily for its source material content. [Source: Atomic Energy Act of 1954, Section 11 (e)]
The Energy Policy Act of 2005 expanded the definition of byproduct material, as defined in Section 11(e) of the
Atomic Energy Act, to include certain discrete sources of radium, certain accelerator-produced radioactive
material, and certain discrete sources of naturally occurring radioactive material, placing these materials under
NRC jurisdiction.

3 Source material – Uranium or thorium or any combination thereof, in any physical or chemical form; or ores
that contain by weight 0.05 percent or more of (1) uranium, (2) thorium, or (3) any combination thereof.
Source material includes depleted uranium and natural uranium, but not “special nuclear material.”
[Source: Title 10 Code of Federal Regulations (CFR) Part 40.4]

4 Special nuclear material – Plutonium, uranium-233, uranium enriched in the isotopes uranium-233 or
uranium-235, and any other material which the Commission, pursuant to the provisions of Section 51 of the
Atomic Energy Act of 1954, as amended, determines to be special nuclear material, but does not include
source material; or any material artificially enriched by any of the foregoing, but does not include source
material. [Source: Title 10 CFR Part 74.4]
                                                       5
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC


               •   establish an effective system to ensure the accurate tracking for
                   byproduct material, especially those with the greatest potential to
                   impact public health and safety.

                       Special Nuclear Material

               The agency has made progress in improving the reliability of
               licensee-reported special nuclear material inventory balances
               recorded in the NMMSS, and has increased efforts to hold licensees
               accountable for the control and accounting of special nuclear
               material. NRC increased its oversight of the jointly managed system
               and required interim inspections to validate the accuracy of licensee-
               reported inventory data to NMMSS. However, the staff awaits final
               Commission endorsement on a proposed revised rule to address
               regulatory improvements to the NMMSS.

                       Byproduct Material

               The NRC is developing a National Source Tracking System to
               improve accountability and tracking of byproduct material. The
               system is proposed as a cradle to grave tracking system of high risk
               sealed sources. It is intended to:

               •   improve accountability and control for nationally tracked sources;

               •   improve the understanding of the location of nationally tracked
                   sources;

               •   improve regulatory efficiency;

               •   enhance NRC’s ability to promote and maintain the public health
                   and safety and common defense and security; and

               •   increase public confidence.

               However, because the agency did not consider all viable options in
               its analysis of the system, the National Source Tracking System may
               be inadequate. Specifically, the proposed tracking system may not
               account for all byproduct material that represents a risk to the
               common defense and security and public health and safety.

               NRC implemented measures to improve the nation’s security of
               radioactive material. For example, NRC issued advisories to
               byproduct material licensees that emphasized the importance of the
               security and control of licensed material. NRC also issued security-
               related orders to the largest material licensees. These orders
               addressed potential vulnerabilities in the storage, transportation, and


                                                6
 Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC


                 access of byproduct material among the licensees. In addition, NRC
                 worked with the Department of Energy to facilitate recovery of
                 selected orphaned sources.5

                 Related Office of the Inspector General Work

                 Audits

                          •   Audit of NRC’s Office of Nuclear Security and Incident
                              Response

                          •   Audit of the Development of the National Source Tracking
                              System

                          •   Audit of the NRC Byproduct Materials License Application
                              and Review Process

                          •   Audit of the Baseline Security and Safeguards Inspection
                              Program

                          •   Audit of NRC’s Oversight of Agreement States’ Licensing
                              Actions

                 Investigations

                          •   NRC’s Oversight of Force-On-Force Program

                          •   NRC’s Handling of Preemption Matters

                          •   NRC’s Regulation of a Materials Licensee

                          •   NRC Oversight of Licensee’s Site Access Authorization
                              Programs

                          •   NRC Oversight of Research Test Reactors

                          •   NRC’s Oversight of Releases of Radioactive Material at the
                              St. Lucie Nuclear Power Plant

                          •   NRC’s Regulatory Oversight of Gaseous Fire Extinguishing
                              Systems

                          •   Counterfeit NRC Licensing Documents

                          •   NRC’s Handling of Security Issues at Shearon Harris Plant


5 Orphaned sources are those radioactive sources that become lost or abandoned and may wind up in non-
nuclear facilities, such as scrap yards, steel mills, and municipal waste facilities.
                                                   7
 Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




CHALLENGE 2
Protection of information.

                NRC employees create and work on a significant amount of sensitive
                information that needs to be protected. Such information can be
                sensitive unclassified information or classified national security
                information contained in written documents and various electronic
                databases.

                As a result of continuing terrorist activity worldwide, NRC continually
                reexamines its document control policies. NRC is faced with the
                challenge of attempting to balance the need to protect sensitive
                information from inappropriate disclosure against its goal of
                openness in its regulatory processes. Over the past year, NRC has
                made various efforts to protect sensitive information, including
                personal information, from inappropriate disclosure.

                        Sensitive Unclassified Non-Safeguards Information

                The agency is revising a policy to ensure that sensitive unclassified
                non-safeguards information (SUNSI) is properly handled and marked,
                and adequately protected from unauthorized disclosure. SUNSI
                refers to any information that, if lost, modified inappropriately, or
                accessed by unauthorized individuals, could reasonably be foreseen
                to harm the:

                •   Public interest;

                •   Commercial or financial interests of the entity or individual to
                    whom the information pertains;

                •   Conduct of NRC and Federal programs; and

                •   Personal privacy of individuals.

                An initial SUNSI policy, that became effective in October 2005,
                required staff to determine which of seven categories best applied to
                documents generated within NRC and apply specific protective
                measures commensurate with the categorization.

                In June 2006, however, the Commission disapproved the SUNSI
                policy. It imposed a simplified policy, including a two-tiered
                categorization that incorporates the existing seven SUNSI categories.
                The simplified two-tiered approach is intended only to be an interim
                process. A final policy will need to incorporate a December 16, 2005,
                Presidential Memorandum requiring the standardization of
                acquisition, access, retention, production, use, management, and

                                                 8
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC


               sharing of sensitive but unclassified information across the Federal
               Government. In an e-mail to the OIG, one Commissioner
               acknowledged that the SUNSI policy needs to be reevaluated, and
               requested that it be included as an audit in the fiscal year 2007 OIG
               audit plan. OIG included this suggestion in the FY 2007 Annual Plan.

                       Security Inspection Report Information

               Another challenge for NRC is the necessary restriction of public
               access to information from the security oversight program for nuclear
               power plants, fuel cycle facilities, and other licensed activities.
               Restricting public access to licensees’ security performance
               information is necessary to protect the Nation from harm that could
               result if this information was misused by those with malevolent
               intentions. However, the staff has had difficulty achieving NRC’s goal
               of openness with regard to sharing licensees’ security performance
               information with the public due to this restriction.

               The Commission took action to address this challenge in April 2006
               when it made security inspection report cover letters publicly
               available. By reviewing these cover letters, members of the public
               can learn that an NRC inspection was conducted at a particular
               facility and whether any deficiencies were found.

                       Other Security-related Information

               NRC will continue to face challenges regarding the protection of
               sensitive information in a post-9/11 environment. Agency initiatives
               undertaken to address this issue have resulted in some
               improvements. For example, the agency used to develop and
               distribute security advisories outside of the agency’s established
               framework. Recognizing that these security advisories are a form of
               generic communications, the agency now processes them through
               the agency’s formal Generic Communications Program. However,
               more needs to be done to ensure consistent understanding and
               implementation by staff tasked with the protection of information.

                       Computer Security

               Computer security is the necessary protection afforded to an
               information system to preserve the integrity, availability, and
               confidentiality of the information system resources. These resources
               include hardware, software, firmware, information/data, and
               telecommunications.

               The Veterans Administration found that a laptop containing social
               security numbers was stolen from an employee’s home. As a result,
               heightened concern over protecting personal information emerged
               across the Federal Government. Other agencies have also revealed
                                         9
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC


               thefts of laptops. For example, in August 2006, the Department of
               Transportation disclosed that a laptop containing personally
               identifiable information on more than 130,000 people in the Miami
               region was stolen from an employee. Like other Federal agencies,
               NRC also faces the challenge of protecting personal information.

               OIG examined NRC’s practices regarding personal privacy
               information after it found such information, including social security
               numbers and dates of birth, on NRC network drives. NRC
               employees could have been at risk for identity fraud and the agency
               may not have been in compliance with the Privacy Act.

               In response to the OIG report, on July 26, 2006, NRC’s Chairman
               requested that staff review agency network drives to identify and
               remove any additional unnecessary personal privacy information
               required to be withheld. He also directed the staff to:

               •   Review the extent to which social security numbers and other
                   personal privacy information are used for identification purposes
                   or are required for agency business;

               •   Determine the vulnerabilities that such use creates; and

               •   Identify actions to mitigate the vulnerabilities, to minimize the use
                   of this information and to eliminate any unnecessary use.

               In an August 25, 2006, EDO Update to the staff, the Executive
               Director for Operations reported on the following specific actions
               planned and underway to protect personally identifiable information
               (PII):

               •   Mandatory information systems security training for all staff
                   starting in the fall of 2006;

               •   Prohibition on removing paper documents that contain PII from
                   NRC premises, unless the PII has been redacted or an exception
                   has been granted;

               •   Formation of an interoffice task force to evaluate NRC’s business
                   processes that use PII;

               •   Update of guidance documents and modification of computer
                   systems and peripheral devices will be modified to better protect
                   PII, and

               •   Installation of encryption capabilities on certain computers.



                                               10
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC


               Completion of these activities is integral to addressing this
               management and performance challenge to protect information.

               Related Office of the Inspector General Work

               Audits

                        •   Evaluation of NRC’s Efforts to Protect Sensitive
                            Information

                        •   Audit of NRC’s Integrated Personnel Security System

                        •   Audit of NRC’s Office of Nuclear Security and Incident
                            Response

                        •   Office of the Inspector General Computer Security Audit of
                            the Technical Training Center, Chattanooga, TN

                        •   Office of the Inspector General Computer Security Audit of
                            Region I – King of Prussia, PA

                        •   Office of the Inspector General Computer Security Audit of
                            Region II – Atlanta, GA

                        •   Office of the Inspector General Computer Security Audit of
                            Region III – Lisle, IL

                        •   Office of the Inspector General Computer Security Audit of
                            Region IV – Arlington, TX

                        •   Evaluation of NRC’s Implementation of the Federal
                            Information Security Management Act (FISMA) for Fiscal
                            Year 2006

                        •   Evaluation of Personal Privacy Information Found on NRC
                            Network Drives

                        •   Audit of NRC’s Implementation of Homeland Security
                            Presidential Directive – 12 (HSPD-12)

                        •   Audit of NRC’s Process for Releasing Commission
                            Decision Documents




                                               11
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC


               Investigations

                       •   Computer Security Inadequacies in the Office of Nuclear
                           Regulatory Research

                       •   Possible Compromise of NRC Privacy Act Data by NRC
                           Contractor

                       •   Identity Theft by NRC Employee

                       •   Possible Unauthorized Release of Pre-decisional
                           Information

                       •   Possible Inappropriate Release of Safeguards Information




                                               12
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




CHALLENGE 3
Development and implementation of a risk-informed and performance-based
regulatory approach.

               NRC’s intent is to increase its safety focus on licensing and oversight
               activities through the application of a balanced combination of
               experience, deterministic models, and probabilistic analysis. This
               approach is known as risk-informed and performance-based
               regulation. Incorporating risk analysis into regulatory decisions is
               intended to improve the regulatory process by focusing both NRC
               and licensee attention and activities on the areas of highest risk.

               In interviews, former Chairman Diaz, a staunch proponent of risk-
               informed regulation, stated that NRC has “done well” in adopting a
               risk-informed approach. However, he believed that risk-informed and
               performance-based regulation should have progressed faster than it
               has. He also stated that “it seems like things slow down” due to
               “communication and implementation, rather than the principles.”

                       Probabilistic Risk Assessment

               One particular challenge NRC faces is the integration of probabilistic
               risk assessment (PRA) into regulatory decision-making. PRA has
               been used by industry and NRC since the 1970s. PRA represents a
               methodology that can be used to determine (1) what can happen, (2)
               what is the likelihood, and (3) what are the consequences. NRC
               uses PRA in the regulatory process including licensing, rulemaking,
               the Reactor Oversight Process, and enforcement. The Commission
               has encouraged the use of PRA and its applications in all nuclear
               regulatory matters to the extent possible. This challenge reflects
               NRC’s commitment to increase the use of PRA technology in all
               regulatory matters (1) to the extent supported by the state-of-the-art
               in PRA methods and data and (2) in a manner that complements the
               agency’s approach and philosophy. Implementation of this practice
               is expected to improve NRC’s regulation of licensees.

               In FY 2006, NRC initiated an effort to address the quality of PRAs
               and develop standard regulatory risk-informed activities. However,
               full implementation of PRA quality standards will take a number of
               years. In addition, application of PRA to NRC’s non-reactor
               regulatory activities (e.g., nuclear materials regulation) lags behind
               application of PRA in regulating commercial nuclear power reactors.




                                               13
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC


                       Commercial Nuclear Power Reactors

               NRC has made progress in implementing a risk-informed and
               performance-based approach at the Nation’s 103 operating
               commercial nuclear power reactors. For example, the NRC Reactor
               Inspection Program and Reactor Performance Assessment Program
               are combined to implement the revised Reactor Oversight Process
               (ROP). An integral part of the ROP is the baseline inspection
               program that was developed using a risk-informed approach to
               determine a list of areas to inspect within seven established
               cornerstones of safety. The baseline inspection program is the
               minimum inspection oversight that should be conducted at each
               nuclear power plant.

               Application of the risk-informed, performance-based approach in the
               baseline inspection program requires continual refinement. As a
               living program, the agency dedicates resources to continually
               reassess and modify this program as necessary based on operating
               experience and industry performance. A recent ROP self-
               assessment recognized that regional inspection resources warrant a
               sizeable increase in full-time equivalents for FY 2007 and FY 2008.
               Potential short-falls in inspection resources pose a challenge to the
               agency to ensure that the risk-informed, performance-based
               approach applied in the baseline inspection program is up-to-date
               and reflects lessons learned.

                       Nuclear Materials Strategic Arena

               NRC is still working to develop and implement a risk-informed and
               performance-based approach to its nuclear materials strategic arena.
               For example in May 2003, the OIG noted that the agency did not
               have a documented basis for the risk-informed approach to its
               oversight of licensees’ material, control and accounting program.
               The OIG recommended that NRC document that basis. To address
               this recommendation, the agency is developing a new rule related to
               the oversight of special nuclear materials. As part of its rulemaking
               plan, NRC staff committed to completing documentation of the basis
               of its risk-informed approach. The rulemaking process is continuing.

               Additionally, NRC amended 10 CFR Part 70, Domestic Licensing of
               Special Nuclear Material, to achieve its objectives of applying a risk-
               informed and performance-based regulatory approach for certain fuel
               cycle facilities. While NRC has made progress on implementing 10
               CFR Part 70 revisions, it still has not completed the work.




                                               14
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC


               Related Office of the Inspector General Work

               Audits

                        •   Follow-up Audit of the Nuclear Regulatory Commission’s
                            Decommissioning Fund Program

                        •   Evaluation of NRC’s Use of Probabilistic Risk Assessment
                            (PRA) in Regulating the Commercial Nuclear Power
                            Industry

                        •   Perspective on NRC’s PRA Policy Statement

                        •   Audit of NMSS’ Procedures for Processing Inspection
                            Guidance

                        •   Audit of NRC’s Oversight of Agreement States’ Licensing
                            Actions




                                               15
 Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




CHALLENGE 4
Ability to modify regulatory processes to meet a changing environment.

                NRC faces the challenge of maintaining its core regulatory programs
                while adapting to emerging changes in its regulatory environment.
                These changes are listed in NRC’s Strategic Plan. One particular
                change in the environment is of such significance that the IG has
                isolated it as a separate challenge (see Challenge 9). That is, NRC
                must address a growing interest in licensing and constructing new
                nuclear power plants to meet the Nation’s demand for energy
                production. The anticipated workload associated with gearing up to
                receive license applications for new reactors will strain NRC’s current
                resources. Preparing for the anticipated strain on resources
                intensifies the challenges posed by other changes in NRC’s
                regulatory environment. While responding to the emerging demands
                associated with regulating new reactors, NRC must also sustain the
                technical quality in carrying out its current regulatory responsibilities.
                In particular, NRC must be able to adapt to:

                •   Uncertainty in the expected number of applications for license
                    renewals submitted to NRC by industry in response to the
                    Nation’s demand for energy production;

                •   A heightened public focus on license renewals resulting in
                    contentious hearings;

                •   Uncertainty in the expected number of licensee requests to
                    increase power levels;

                •   Increasing quantities of radioactive waste requiring interim or
                    permanent disposal sites; and

                •   Delays and uncertainties related to NRC’s receipt and review of a
                    Department of Energy license application to construct a high-level
                    waste repository at Yucca Mountain.

                        Reactor License Renewals

                NRC’s license renewal program is one of the major elements of its
                regulatory work. In accordance with the Atomic Energy Act, NRC
                approves and issues licenses for commercial nuclear power plants to
                operate for up to 40 years. 10 CFR Part 54, Requirements for
                Renewal of Operating Licenses for Nuclear Power Plants, allows
                these plants to be renewed upon expiration of their existing licenses.
                Issuance of a renewed license allows a license to be renewed for up
                to 20 years. NRC could receive approximately 25 to 30 additional
                applications to renew operating licenses over the next several years.
                                                16
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC


               Because the decision whether to seek a renewal is the responsibility
               of the nuclear power plant owner(s), anticipating the number of
               applications is a challenge to NRC. Recent agency experience
               reflects industry’s strong interest in license renewal.

               Additionally, NRC will encounter challenges related to a heightened
               public interest in license renewals that may lead to more contentious
               hearings. Until 2006, it was unlikely for NRC to grant hearings on
               license renewals. In 2006, however, NRC granted the first two such
               hearings and the license renewal staff anticipates more.

                       Licensee Requests to Increase Power Levels

               Licensees have been using power uprates since the 1970s as a way
               to increase the power output of their nuclear power plants. Many
               licensees have formally requested NRC approval to operate their
               plants at a higher power level than the level authorized in the original
               license. As of August 2006, the NRC approved 112 power uprate
               increases, and 6 are pending review. Over the next five years, NRC
               expects 23 additional requests, which may affect the ability of NRC
               staff to maintain established review schedules.

               To address the increase in power uprate requests, NRC is continuing
               to develop process improvements based on lessons learned from
               completed reviews. The process improvements include more
               detailed analysis of specific technical issues and related efficiencies.
               Some of the technical issues include power uprate testing programs
               and reactor systems methods. Also, NRC has implemented more
               rigorous acceptance reviews for power uprate applications to improve
               the efficiency of the process.

                       High-Level Waste Disposal

               According to the Nuclear Waste Policy Act, the Department of Energy
               has the responsibility to locate, design, build, and operate a
               repository for high-level nuclear waste. NRC has the responsibility to
               license and regulate this facility. Over the past several years, NRC
               has been preparing its review plan in anticipation of the Department
               of Energy tendering its license application for the construction of a
               permanent repository at Yucca Mountain in Nevada.

               Recently, the Department of Energy announced plans to submit a
               license application to NRC by June 30, 2008, and to initiate
               repository operations in 2017. However, the date that the
               Department of Energy will submit its license application continues to
               change. As a result, NRC is faced with the challenge of being
               prepared to receive and review the application whenever it comes in.


                                               17
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC


               Once NRC receives the application, the agency has a
               congressionally mandated time frame of 3 years, with an optional
               year, to review the application and make its determination on the
               license.

               NRC continues to prepare for receipt of the license application and is
               now focusing its efforts on pre-licensing activities. The agency’s
               ability to modify regulatory processes to meet a changing
               environment will continue to be a prominent challenge for NRC in FY
               2007, as it relates to NRC’s high-level waste program.

               Related Office of the Inspector General Work

               Audits

                        •   Audit of NRC’s Office of Nuclear Security and Incident
                            Response

                        •   Audit of the Development of the National Source Tracking
                            System

                        •   Audit of the NRC Byproduct Materials License Application
                            and Review Process

                        •   Audit of the NMSS’ Procedures for Processing Inspection
                            Guidance




                                               18
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




CHALLENGE 5
Implementation of information resources.

               Federal agencies’ acquisition and implementation of information
               resources is crucial to (1) support critical mission-related operations
               and (2) provide more effective and cost-efficient Government
               services to the public. The necessary link of information technology
               to NRC’s mission performance makes it important to have decision-
               making processes which ensure that funds are invested and
               managed to achieve high value outcomes at acceptable costs. NRC
               relies on a wide variety of information systems to help it fulfill its
               responsibilities and support its business flow. NRC continues to work
               towards obtaining a good return on these investments. In recent
               years, NRC has created large databases of publicly available
               information, including the High-Level Waste Meta System, the
               Licensing Support Network, the NRC website, and the Agencywide
               Documents Access and Management System (ADAMS) public
               reading room.

               The following sections highlight NRC’s efforts to strengthen and
               support the agency’s business needs using information technology
               strategies.

                       Information Security and Federal Information Security
                       Management Act (FISMA) Compliance

               NRC received a “D-” on its Federal computer security grade for 2005.
               The low grade primarily reflected that very few NRC system
               certifications and accreditations were current at the time the systems
               were reviewed for compliance with FISMA. The security certification
               and accreditation of information systems is integral to an agency’s
               information security program and supports the risk management
               process required by FISMA. To ensure the agency’s systems have
               adequate security controls to protect information resources, NRC
               engaged a contractor to enhance agency-wide information systems
               security. The approximate $41 million contract was awarded on
               July 28, 2006, and will be in place for five years. In its 2006 FISMA
               evaluation report, OIG identified two significant deficiencies in NRC’s
               information system security program. While progress is being made
               on strengthening the program, more actions are needed to correct
               identified weaknesses.




                                               19
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC


                       Homeland Security Presidential Directive 12 (HSPD-12)

               On August 27, 2004, the President signed HSPD-12 requiring
               implementation of a mandatory governmentwide standard for secure
               and reliable forms of identification for Federal employees and
               contractors. It directed Government departments and agencies to
               require Federal employees and contractors to use identification that
               meets the standard to gain physical and logical access to Federal
               facilities and information systems. Subsequent Federal guidance
               split requirements into two parts. The first part required agencies to
               verify the identity of individuals applying for official agency badges.
               The second part provided detailed specifications to support using a
               common identification standard for Federal employees and
               contractors.

               On October 27, 2005, NRC implemented part one requirements in
               compliance with the Office of Management and Budget’s (OMB)
               deadline. Implementation of the first part of the process did not
               require major adjustments to NRC’s existing personnel security
               program. In August 2006, OIG reviewed the agency’s efforts to date
               and found that while NRC implemented the first part in compliance
               with OMB’s deadline, several improvements were needed.

               The second part of the process involves issuing standard badges and
               acquiring the technology to integrate usage of the cards into agency
               security practices. OMB established October 27, 2006, as the date
               that Federal agencies are to begin issuing badges compliant with the
               new standard. NRC recognizes that it will be a challenge to
               implement the requirements on a timely basis. It is considering
               approaches as to how to best implement these requirements and
               intends to meet the October 2006 deadline.

                       Microsoft Office Deployment

               NRC is developing a plan to deploy Microsoft Office Professional
               software suite, including Word, Excel, Powerpoint, and Access to all
               agency desktop computers. Microsoft Office products will become
               the agency’s standard within the coming year. During the
               implementation, Corel WordPerfect will remain the agency’s standard
               word processing format. Once MS Word has been installed agency
               wide and declared the new agency standard, Corel WordPerfect will
               be available on desktop computers for up to one year. The EDO
               explained the agency’s position on this matter in an EDO Update,
               dated August 25, 2006. The change will need to involve training the
               staff to facilitate the transition to the use of the new software.




                                               20
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC


                        Agencywide Documents Access and Management System
                        (ADAMS)

               ADAMS is an information system that allows access to image and
               text documents that NRC has made public since November 1, 1999,
               as well as bibliographic records that NRC made public before
               November 1999. ADAMS permits full-text searching and enables
               users to view document images, download files, and print documents
               locally. The Office of Information Services is planning to update
               ADAMS and then replace it in 2010. This strategy consists of the
               following major activities necessitating end user involvement:

               •   Conducting an analysis of the features and capabilities of
                   document management systems currently on the market with
                   respect to agency requirements;

               •   Improving the present system to the extent possible;

               •   Updating the existing system in a carefully planned manner to
                   achieve a smooth transition; and

               •   Acquiring and implementing a replacement document
                   management system by securing a suitable product at a
                   reasonable cost.

               This change will present a major challenge to NRC. ADAMS initial
               cost exceeded agency estimates, took longer to become operational
               than anticipated, and initially failed to produce significant
               improvements in document management. The challenge will be to
               incorporate ADAMS previous lessons learned for an effective
               transition to a new system.

               Related Office of the Inspector General Work

               Audits

                        •   Audit of NRC’s Integrated Personnel Security System

                        •   Audit of NRC’s Implementation of Homeland Security
                            Presidential Directive – 12 (HSPD-12)




                                               21
 Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




CHALLENGE 6
Administration of all aspects of financial management.

                Financial management challenges include—

                •   Preparation of financial statements in accordance with applicable
                    requirements;

                •   Financial systems replacement;

                •   Sound budget formulation planning; and

                •   Efficient and effective procurement operations.

                A brief discussion of these challenges follows.

                        Preparation of Financial Statements

                For the fifth consecutive year, the NRC received the Certificate of
                Excellence in Accountability Reporting (CEAR Award) for the FY
                2005 Performance and Accountability Report. The CEAR Program,
                sponsored by the Association of Government Accountants, was
                established in conjunction with the Chief Financial Officers Council
                and the OMB. Its goal is to improve financial and program
                accountability by streamlining reporting and improving the
                effectiveness of such reports.

                NRC received an unqualified audit opinion on its FY 2005 financial
                statements. However, the agency’s independent auditors continued
                to characterize NRC’s legacy Fee Billing System as a material
                weakness and as a Federal Financial Management Improvement Act
                substantial non-compliance. The lack of system functionality for the
                agency’s Fee Billing System, coupled with the age of the system, and
                a reliance on manual processes, is the underlying cause of the
                material weakness.

                In FY 2005, the NRC implemented a number of internal control
                measures to mitigate the effects of the system deficiencies. Those
                measures include performing a license fee reconciliation, modifying
                the Fee Billing System to improve the functionality of the interfaces,
                expanding acceptance testing for software modifications, conducting
                an independent verification and validation of the software
                modifications, and separating the billing and reconciliation functions.




                                                22
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC


               In FY 2006, the NRC conducted a comprehensive internal control
               assessment and identified additional internal control improvements.
               These include performing automated interface validation procedures,
               implementing an exception reporting process, expanding manual
               validation procedures to include a contract cost reconciliation, and
               performing statistical sampling to validate the billing of small material
               invoices.

               While the agency has made progress in developing a variety of
               quality control procedures, the challenge remains to mitigate known
               design and system risks of the legacy system and to assert to the
               completeness and reliability of the fee billing process.

                       Financial Systems Replacement Project

               The financial systems replacement project, as currently planned,
               involves the replacement of the NRC’s core accounting system (the
               Federal Financial System), the License Fee Billing System, and the
               Human Resources Management System.

               NRC implemented the Federal Financial System as their core
               accounting system in October 1992. The National Business Center
               (NBC), Department of the Interior, hosts this system for the agency.
               NBC notified all customer agencies in a March 30, 2006, letter, that
               the corporate owner of the system advised that the Federal Financial
               System is no longer compliant with Federal standards for financial
               management systems. Accordingly, any upgrades or enhancements
               to this system have been discontinued. Therefore, NBC will no
               longer provide services on the Federal Financial System effective
               October 1, 2010.

               The License Fee Billing System is actually a combination of nine
               separate systems used to accomplish license fee billing. The
               systems that comprise the License Fee Billing System were
               developed piecemeal over many years to accomplish fee billing. The
               system software is outdated, requires too much manual intervention,
               and was not designed to include the internal control and data auditing
               features expected in contemporary financial applications.

               The agency is facing the challenge of replacing the Federal Financial
               System and the License Fee Billing System by creating a new
               organizational unit, the Financial Systems Development Staff. NRC
               determined that it would be more efficient to place replacement
               efforts under one modernization group that would focus exclusively
               on these important projects.




                                               23
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC


                       Budget Formulation

              To accomplish the agency’s mission, NRC must maintain a long-range
              planning and budgeting process. The process must provide for
              adequate consideration of contingencies and changing priorities so
              that resources are assigned commensurate with program
              requirements. Overall, NRC faces the following challenges in
              planning the FY 2008 budget:

               •   Planning for license applications for new reactors - The projected
                   number of license applications can, and has, changed. The
                   assumption used in the FY 2008 budget is 13 license applications
                   expected to be submitted during FY 2007 and FY 2008.
                   However, uncertainties exist regarding whether some utilities may
                   decide to accelerate or decelerate their applications.

              •    Planning for receiving a license application for the high-level waste
                   repository at Yucca Mountain - In the Nuclear Materials and Waste
                   Safety arena, uncertainties in timing and approach associated with
                   the Department of Energy’s plan for submitting a license
                   application for the high-level waste repository at Yucca Mountain
                   present a challenge for budget formulation. The assumption used
                   in the FY 2008 budget is that the Department will submit the
                   license application in June 2008 with NRC having 6 months to
                   docket. However, the date that the Department will submit its
                   license application continues to change, posing the challenge for
                   NRC to be prepared to receive and review the application
                   whenever it comes in.

              •    Implementation of a new budget system - NRC procured a vendor
                   to integrate a new budget system and planned to test it with
                   FY 2008 budget data in parallel with the existing process.
                   However, because the new budget system requires "certification
                   and accreditation," and has not been granted authorization to
                   operate, NRC could not test it as planned. Consequently, the
                   agency must wait until the FY 2009 budget cycle to test the new
                   system.

                       Procurement

               NRC’s procurement of goods and services must be made in
               accordance with Federal regulations and with an aim to achieve the
               best value for the agency’s dollars in a timely manner. Agency policy
               provides that the NRC’s procurement of goods and services support
               the agency’s mission and be planned, awarded, and administered
               efficiently and effectively. During FY 2005, the Division of Contracts
               (with 32 full-time employees) completed 1,849 procurement actions


                                               24
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC


               totaling $109.2 million. There are numerous challenges facing the
               agency in the procurement area. Some of these challenges, as well
               as certain actions the agency is taking to address them, are
               mentioned below:

               •   Hiring and training new contract personnel - In the past 15
                   months, the Division of Contracts hired 17 new employees, with 3
                   additional staff expected to start in the upcoming fiscal year. The
                   new staff will require training on NRC regulations and procedures
                   to become productive team members. Accordingly, the Division
                   of Contracts has developed a list of training topics for
                   presentation to new employees.

               •   Keeping current with changes to the Federal Acquisition
                   Regulation (FAR) - Employees new to the Division of Contracts
                   will receive training on FAR as part of the training presentations
                   described above. However, existing employees may not have
                   had FAR training recently and may not be aware of changes. A
                   Division of Contracts staff member has been identified to monitor
                   the revisions to the FAR by the Civilian Acquisition Council and to
                   keep the other Division of Contracts staff informed of those
                   changes.

               •   Obtaining contract audit services - The Division of Contracts
                   continues to coordinate with OIG to obtain needed contract
                   audits. This includes audits of contracts that are complete and in
                   closeout status, active contracts with significant dollars expended,
                   as well as pre-award audits on proposed contracts.

               •   Closing expired contracts and deobligating excess funds – The
                   FAR promulgates time standards by which contracts should be
                   closed out and money deobligated. The agency has made
                   progress in closing out its old expired contracts, thereby
                   deobligating excess funds and making those funds available for
                   other agency priorities. During FY 2006, the agency closed 87
                   old expired contracts and deobligated the excess funds to make
                   those funds available for other agency priorities.




                                               25
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC


               Related Office of the Inspector General Work

               Audits

                        •   Results of the Audit of the United States Nuclear
                            Regulatory Commission’s Financial Statements for Fiscal
                            Years 2005 and 2004

                        •   Independent Auditors’ Report on the U.S. Nuclear
                            Regulatory Commission’s Special-Purpose Financial
                            Statements as of September 30, 2005, and 2004, for Years
                            then Ended

                        •   Independent Accountant’s Report on the Application of
                            Agreed-Upon Procedures on the Closing Package
                            Intragovernmental Activity and Balances as of September
                            30, 2005

                        •   Review of NRC’s Implementation of the Federal Managers’
                            Financial Integrity Act for Fiscal Year 2005

               Investigations

                        •   Failure to Report Contractor Payment Error to OIG
                            Auditors

                        •   Review of Court Reporting Services Contract
                            Organizational Conflict of Interest by NRC Contractor

                        •   Review of NRC’s Oversight of the Management of the
                            Parking Garage Contract

                        •   False Claim by NRC Licensee of Small Business Status

                        •   Review of NRC’s Workers’ Compensation Program

                        •   Possible Improper Worker’s Compensation Claim

                        •   Adequacy of Controls by Office of Nuclear Regulatory
                            Research Managers of Research Expenditures

                        •   Review of NRC’s Management of the Small Disadvantaged
                            Business Program




                                               26
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




CHALLENGE 7
Communication with external stakeholders throughout NRC regulatory
activities.

               The NRC has stated that nuclear regulation is the public’s business
               and, therefore, it should be transacted in an open and candid manner
               in order to maintain the public’s confidence. The continuing
               challenge for management is to ensure that there are effective ways
               of communicating with and obtaining information from external
               stakeholders (e.g., public meetings, workshops). Effective
               communication is vital and can have a significant impact on the
               agency achieving its goals.

               NRC established a strategic goal to ensure openness. That goal
               expressly recognizes that the public must be informed about, and
               have a reasonable opportunity to participate in, the regulatory
               processes. NRC states that public involvement in, and information
               about, its activities is the cornerstone of strong, fair regulation of the
               nuclear industry. The agency has long acknowledged the public’s
               interest in the regulation of nuclear activities, and therefore, provides
               opportunities for citizens to be heard.

               Due to the nature of its business, the agency needs to interact with a
               diverse group of external stakeholders (e.g., the Congress, general
               public, other Federal agencies, and various industry and citizen
               groups) with clear, accurate, and timely information about NRC’s
               regulatory activities.

               The agency enhanced its outreach to better involve external
               stakeholders in NRC’s business in several ways. The agency
               responded to an extraordinary high number of stakeholder requests
               for more information and to numerous Congressional inquiries. The
               agency also conducted extensive interviews with the media and
               meetings with residents of local communities and state and local
               government officials to discuss new initiatives, reported events, and
               other significant regulatory activities. For instance:

               •   NRC encourages public participation and comments applicable to
                   new reactor licensing activities through open meetings,
                   commission meetings, advisory committee meetings, and other
                   opportunities open to the public.




                                               27
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC


               •   Public meetings between NRC’s technical staff and applicants or
                   licensees are open for interested members of the public to attend.
                   In this case, members of the public attend in accordance with the
                   “Commission Policy Statement on Staff Meetings Open to the
                   Public.”

                        Compliance with the Freedom of Information Act

               In this post-9/11 environment, NRC continues to face challenges with
               determining an appropriate balance between its strategic goal of
               openness and the need to protect sensitive information. The agency
               has traditionally committed to the principles of openness, fairness
               and due process. In addition, the Freedom of Information Act
               requires Federal agencies to make information available to the
               general public by request or through automatic disclosure of certain
               types of information. Although the agency has a process for handling
               Freedom of Information Act requests from external stakeholders, OIG
               found weaknesses in the agency’s internal controls needed to ensure
               compliance with requirements to automatically disclose information to
               the public. The agency faces the challenge to reconcile its position
               regarding public release of information.

               Related Office of the Inspector General Work

               Audits

                        •   Audit of NRC’s Controls Over Video News Release

                        •   Audit of NRC’s Process for Releasing Commission
                            Decision Documents

               Investigations

                        •   NRC’s Handling of Preemption Matters




                                               28
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




CHALLENGE 8
Managing human capital.

               NRC’s ability to successfully execute activities in support of its
               mission depends on a highly skilled and experienced workforce.
               NRC continues to be challenged by growth in new work at a time
               when senior experts are increasingly eligible to retire. Over the next
               5 years, NRC expects a substantial increase in work related to:

               •   new reactor licensing applications;

               •   the Department of Energy’s license application for the Yucca
                   Mountain high-level waste repository;

               •   industry applications to increase the number of fuel cycle
                   production facilities; and

               •   potential NRC involvement in the Global Nuclear Energy
                   Partnership.

               To mitigate the impact of these challenges, the agency:

               •   Established a Human Capital Council to find, attract, and retain
                   staff who possess critical skills;

               •   Continued implementation of a space optimization plan;

               •   Implemented human capital provisions of the Energy Policy Act of
                   2005;

               •   Identified staffing/training and development needs;

               •   Moved forward with knowledge management strategies; and

               •   Monitored the attrition rate.

                       Human Capital Council

               In July 2006, the EDO established the Human Capital Council. The
               Council’s goal is to provide an agency-level forum for the formulation
               of strategies to address human capital challenges, share best
               practices, and develop an integrated approach to address human
               capital issues.




                                               29
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC


                       Space Planning and Management

               The agency is working to address the challenge of ensuring that
               enough workstations are available to keep pace with continued
               growth in headquarters hiring. NRC continues to implement its space
               optimization initiative to create additional workstations throughout the
               White Flint Complex, including temporary construction of
               workstations in conference rooms and restricting additional onsite
               contractors. The plan includes moving the Professional Development
               Center offsite to Bethesda, Maryland, which will allow for the
               construction of additional workstations. NRC’s Document Processing
               Center contractor will be relocated within Headquarters which will
               also create space for additional workstations for staff use.

               In order to meet NRC’s growth needs, additional office space has
               been selected. The site has undergone a complete renovation during
               which the building infrastructure was replaced. Some NRC staff is
               projected to move into the new building during January 2007. Finally,
               the agency is working with the General Services Administration to
               pursue the acquisition of additional headquarters office space to
               meet NRC’s near-term and long-term requirements. For the
               foreseeable future, ensuring that adequate office space is available
               for all new employees will be a significant challenge for the agency.

                       Energy Policy Act of 2005

               The Energy Policy Act of 2005 includes human capital provisions that
               will assist the agency in increasing its workforce and assuring that its
               workforce has the knowledge and skills necessary to prepare for
               anticipated new reactor license applications. The agency is
               implementing a provision that authorizes it to pay Federal retirees,
               who are hired as consultants, their full salary without pension offset.
               This provision applies to positions for which there is exceptional
               difficulty in recruiting or retaining qualified employees. It is currently
               being used to accomplish different agency tasks and to recover
               critical skills and transfer critical knowledge.

                       Staffing/Training and Development

               NRC needs a results-oriented workforce with the requisite talents,
               multidisciplinary knowledge, and current skills to ensure that it is
               equipped to accomplish its mission and achieve its goals. Acquiring
               and retaining a workforce with the appropriate knowledge and skills
               demands that NRC improve its recruiting, training, development, and
               retention approaches so that the agency can compete for and retain
               talented people.



                                               30
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC


               Also, NRC faces a challenge to continually identify emerging critical
               skill needs, sustain hiring momentum into the future, and retain
               personnel as the industry staffs up for new plant construction. The
               agency expects to hire approximately 1,300 new employees between
               FYs 2006 and 2009. During the same time period, NRC anticipates
               providing technical training for approximately 11,523 students.
               NRC’s ability to effectively review and license the new generation of
               commercial nuclear reactors will depend significantly on how well
               employees are trained and developed into effective reviewers and
               regulators at the staff and senior management level. Ongoing
               agency programs such as the Nuclear Safety Professional
               Development Program and Graduate Fellowship Program help to
               train staff to carry-out the agency’s mission and functions.

                       Knowledge Management

               Knowledge management involves capturing critical information and
               making the right information available to the right people at the right
               time. It is a part of the strategic management of human capital.
               Knowledge management is a critical strategy for assuring that
               knowledge and experience of the current staff is passed onto the
               next generation of NRC staff. The issue of knowledge leaving the
               agency as a result of departing and retiring personnel and within-
               agency promotions represents a significant challenge. NRC’s Office
               of Human Resources continues to work with NRC offices and regions
               to identify and add useful information to its recently developed
               knowledge management website. Continuing attention is needed to
               explore innovative methods to capture and transfer key knowledge
               held by agency employees.

                       Monitoring of Attrition Rate

               NRC monitors its voluntary attrition rate, including retirements, which
               has historically been below 6 percent. Close monitoring is critical
               because it is possible that NRC’s attrition rate could increase as
               nuclear industry competition for skilled employees increases and as
               older staff members retire. As of August 30, 2006, there were
               approximately 3,200 NRC staff at the agency, the highest total since
               1993. In spite of the accelerated hiring efforts, NRC faces the difficult
               challenge of replacing key senior staffers who retire or leave the
               agency. For example, during the first seven months of 2006, of the
               19 Office of Nuclear Reactor Regulation staff who either retired or left
               the agency, seven were considered senior staffers. The agency’s
               continued monitoring of the attrition rate is necessary to identify any
               unusual upward trends and to take prompt action to build and
               maintain a strong retention culture.



                                               31
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC


               Related Office of the Inspector General Work

               Audits

                        •   2005 NRC’s Safety Culture and Climate Survey




                                               32
 Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




CHALLENGE 9
Ability to meet the demand for licensing new reactors.

                There is a growing list of United States utilities (licensees) that are
                considering new nuclear power plant construction in the Nation.
                These licensees intend to submit various applications including those
                for early site permits, combined licenses, and design certifications.
                NRC’s licensing process is outlined in 10 CFR Part 52, Early Site
                Permits; Standard Design Certifications; and Combined Licenses for
                Nuclear Power Plants (Part 52). The Combined Operating Licenses
                (COLs) for nuclear power facilities involve the issuance of a
                combined construction permit and a conditional operating license for
                a nuclear power facility. NRC is involved in several significant
                activities to ensure that it is prepared to review the first of these COL
                applications which is expected in 2007-2008. Some of these
                activities include:

                •   Reviewing industry’s guidelines for a COL application;

                •   Determining what actions are necessary to prepare for receipt of
                    a COL application;

                •   Assessing rulemaking activities for the licensing process;

                •   Reviewing Early Site Permits applications; and

                •   Developing a Multi-National Design Approval program with
                    international regulators that will take advantage of worldwide
                    nuclear safety, licensing and operating experience.

                The NRC has already certified some new reactor designs under the
                new Part 52 licensing process. Under this approach, NRC pre-
                approves or certifies new reactor designs and allows licensees’ to
                apply for an Early Site Permit and/or a COL using one of the pre-
                approved designs. Also, NRC intends to apply a Design-Centered-
                Approach to facilitate effective, efficient, and timely review of multiple
                COL applications. This approach streamlines and shortens the NRC
                review process.

                Although the Part 52 application process has advantages for both
                NRC and the nuclear industry, it nevertheless represents a significant
                challenge through the increased workload and pressure on the
                agency to create the infrastructure necessary to support review of
                new plant licensing applications.




                                                33
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC


               As NRC enters a new era of reactor regulation, it faces many
               challenges. In addition to ongoing license renewal activities, the
               agency will face the first round of new reactor applications since
               1978. NRC estimates that it may receive 20 or more applications in
               the coming years, and believes that upward of 450 new staff
               positions will be needed to meet this need.

               Coinciding with the dramatic increase in regulatory responsibilities
               will be the retirement of many senior staff that has experience
               licensing reactors from the 1960s, 1970s, and 1980s. The agency’s
               ability to effectively review and license the new generation of
               commercial nuclear reactors will depend significantly on how well
               employees, new to the process, are trained and developed into
               effective reviewers and regulators at the staff and senior
               management level. Furthermore, construction oversight of future
               plants would be equally or more challenging.

               The review of new applications involving new reactor technologies, a
               new licensing process, and new untested staff in this realm
               necessitates a strong control process to ensure the agency meets its
               review and licensing objectives. Specific challenges include:

               •   Project Management – Effective technical and communications
                   skills are essential to being the focal point (project manager) of
                   NRC and licensee interactions.

               •   Construction Inspection Oversight – NRC must reinstitute this
                   program after being dormant for many years.

               •   Technical Review Process – NRC must have a defined process
                   for ensuring that all requisite technical reviews are conducted,
                   documented and approved.

               •   Standard Review Plan – As with the previous generation of
                   reactors, NRC must have a comprehensive Standard Review
                   Plan for examining a license application. Additionally, consistent
                   implementation is vital.

               •   Safety Evaluation Reports – The agency needs a solid process
                   for compiling its regulatory examination into a Safety Evaluation
                   Report. This report reflects the agency’s conclusion about a
                   plant’s ability to operate safety. It is vital that such conclusions be
                   documented and approved.

               Finally, in a September 28, 2006, letter, Congress raised concern
               that, in preparing for additional COLs, NRC is presented with
               organizational, management and resource challenges.


                                               34
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC


               CONCLUSION

               Although the nine challenges identified in this report are distinct, they
               are also interdependent. The overarching challenge of managing
               human capital is the cornerstone to effectively addressing all other
               management and performance challenges.

               One of the OIG’s strategic goals is to improve the economy,
               efficiency, and effectiveness of NRC corporate management. The
               Inspector General’s identification of the most serious management
               and performance challenges facing the agency and the OIG’s
               commitment to ensuring the integrity of NRC programs and
               operations help achieve this goal. The agency continues to take
               action in response to the management and performance challenges
               identified. In particular, the agency sufficiently addressed one of the
               2005 management challenges to result in its removal. However,
               continuing management attention and emphasis on the management
               and performance challenges is essential to achieving significant
               progress for each challenge.




                                               35
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC




                               [Page intentionally left blank.]




                                               36
Inspector General’s Assessment of the Most Serious Management and Performance Challenges Facing NRC

                                                                                        Appendix A
SCOPE AND METHODOLOGY

               The scope of this evaluation involved the Inspector General’s annual
               assessment of the most serious management and performance
               challenges facing the Nuclear Regulatory Commission. The
               challenges represent critical areas or difficult tasks that warrant high-
               level management attention. To accomplish this work, the Office of
               the Inspector General (OIG) focused on determining (1) the current
               challenges, (2) the agency’s efforts to address the challenges, and
               (3) what remains to be done.

               The OIG reviewed and analyzed pertinent laws and authoritative
               guidance. In addition, OIG conducted interviews with agency officials
               to identify current performance and management challenges and the
               steps taken by the agency to address these challenges through
               planning and in daily operations. Since challenges affect mission
               critical areas or programs that have the potential to impact agency
               operations or strategic goals, NRC Commission members, the EDO
               and CFO were afforded the opportunity to share any information on
               this subject

               OIG conducted this evaluation from July through September 2006.
               The major contributors to this report were Steven Zane, Team
               Leader, Beth Serepca, Team Leader, Anthony Lipuma, Team
               Leader, Debra Lipkey, Audit Manager, and Michael Steinberg, Senior
               Auditor.




                                               37
